T7
No.

IN THE

SUPREME COURT OF THE UNITED STATES

D’ANN S. MCCOY - PETITIONER
VS.
BOUREIMA OUEDRAOGO - RESPONDENT

CERTIFICATION OF SERVICE

I, D’Ann McCoy, declare in compliance with 28 U. S. C. § 1746. Rule 29.5(c) under
penalty of perjury that the foregoing is true and correct. As required by Supreme Court
Rule 29,1 have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served,by depositing an
envelope containing the above documents in the United States mail properly addressed
to each of them and with first class postage prepaid, or by delivery to a third party
commercial carrier for delivery within 3 calendar days.
15

